No. _______________
IN THE
SUPREME COURT OF THE UNITED STATES
TROY KENDRICK, JR.,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
On Petition for Writ of Certiorari
to the United States Court of Appeals for the Fifth Circuit
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
NOW COMES Petitioner Troy Kendrick, Jr., through undersigned counsel,
who moves this Honorable Court for leave to proceed in forma pauperis and to file the
attached Petition for Writ of Certiorari without prepayment of costs, pursuant to
Supreme Court Rule 39 and 18 U.S.C. § 3006A(d)(7). A United States District Judge
for the Eastern District of Louisiana declared Mr. Kendrick indigent and appointed
the Federal Public Defender to represent him in his case. See United States v.
Kendrick, No. 2:16-CR-163, Dkt. 202, (E.D. La. June 1, 2018) (attached hereto).
WHEREFORE, Petitioner respectfully moves this Honorable Court for leave
to proceed in forma pauperis and to file the attached Petition for Writ of Certiorari
without prepayment of costs.

Respectfully submitted this 2nd day of April, 2021.
/s/ Samantha Kuhn
SAMANTHA J. KUHN
Assistant Federal Public Defender
Counsel of Record
Office of the Federal Public Defender
500 Poydras Street, Suite 318
Hale Boggs Federal Building
New Orleans, Louisiana 70130
(504) 589-7930
samantha_kuhn@fd.org

2

Case 2:16-cr-00163-JTM-JCW Document 202 Filed 06/01/18 Page 1 of 1
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF LOUISIANA
NO. 16-163 "H"

UNITED STATES OF AMERICA
ORDER

Appointing Counsel

VERSUS

Substituting Counsel For:
Ratifying Prior Service

TROY KENDRICK, JR.

Extending Appointment For Appeal

CHARGE: [CHARGE]
X

FELONY

MISDEMEANOR

X The defendant, having satisfied this Court that he/she: (1) is financially unable to employ counsel, and
(2) does not wish to waive counsel, and because the interests ofjustice so require, the Federal Public
Defender named below is hereby appointed to represent this defendant in the above designated case
until relieved by order of the District Court:
CLAUDE KELLY, FEDERAL PUBLIC DEFENDER, HALE BOGGS FEDERAL BLDG.,
ROOM 318, 500 POYDRAS ST, NEW ORLEANS, LA 70130 PHONE: (504) 589-7930

Federal Public Defender is appointed for the limited purpose of:

.

It appearing to the Court that although the defendant is financially unable to employ counsel, he/she is
totally indigent.
IT IS FURTHER ORDERED that the defendant pay to the Clerk, U. S. District Court for services of

counsel, the total amount of $

to be paid within 10 working days or by

IT IS FURTHER ORDERED that the defendant is to pay to the Clerk, U.S. District Court, for services
of counsel, $

per month. This amount is to be paid, beginning on

until further orders of the Court.

Dated at New Orleans, Louisiana, on

JUNE 1, 2018

fITED STATESLMAGI9TRADB JUDGE

Copy to Financial Unit Clerk (Only ifdefendant is c«xier^d to pay)

,

